OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/NIGERIA’S
CASHIERING OPERATIONS

AUDIT REPORT NO. 7-620-06-003-P
July 31, 2006




DAKAR, SENEGAL
Office of Inspector General




July 31, 2006

MEMORANDUM

TO:                     USAID/Nigeria Director, Patrick Fleuret

FROM:                   Regional Inspector General/Dakar, Nancy Toolan /s/

SUBJECT:                Audit of USAID/Nigeria’s Cashier Operations (Report No. 7-620-06-003-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains one recommendation with which you concurred in your response to the
draft report. Based on appropriate action taken by the Mission, a management decision has
been reached, and the recommendation is considered closed upon issuance of this report. No
further action is required of the Mission.

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ......................................................................................................... 1

Background ....................................................................................................................... 2

Audit Objective.................................................................................................................. 2

Audit Findings ................................................................................................................... 3

          Competing Priorities and Pressures Affect
          Efficiency of Cashier Operations ............................................................................. 4

Evaluation of Management Comments ........................................................................... 6

Appendix I – Scope and Methodology ............................................................................ 7

Appendix II – Management Comments ........................................................................... 8
SUMMARY OF RESULTS
The Regional Inspector General/Dakar conducted this audit to determine if
USAID/Nigeria managed its cashiering operations efficiently, economically and in
accordance with Agency policies and procedures. (See page 2). USAID/Nigeria
generally managed its cashier operations in accordance with applicable requirements.
However, the Mission did not manage the operations as economically or as efficiently as
it could. (See page 3).

Despite generally adhering to applicable requirements, we noted that USAID/Nigeria did
not manage its cashier operations as economically as it could. At the time of our audit,
USAID/Nigeria had not reviewed the imprest fund level for at least three years, contrary
to Cash Management Policy Guidelines. The Acting Controller explained that the delay
in reviewing the imprest fund level was due to many competing demands, but that a
review of the fund was underway at the time of our audit. Therefore, we are not making
a recommendation regarding this issue. (See page 3).

We also found that USAID/Nigeria was not managing its cashiering operations as
efficiently as it could. Our audit disclosed two management duties required by the
Department of State’s Foreign Affairs Handbook that the cashier was not performing
regularly. The first was a failure to perform daily cash reconciliations and the second
was a failure to follow-up on outstanding advances. The cashier told us that she does
not have the time to perform these management duties due to many other demands and
pressure to perform routine transactions outside of normal operating hours. (See pages
4 to 5).

The cashier’s failure to perform and catch up with daily management responsibilities
exposes USAID/Nigeria’s cashiering operations to the risks associated with poor
financial management. To address this weakness, we are recommending that
USAID/Nigeria develop policies to restrict transactions occurring outside of normal
cashier operating hours. (See page 5).




                                                                                      1
BACKGROUND
Mission cashiering operations are governed by policies and procedures issued by the
U.S. Department of the Treasury, the U.S. Department of State, and the U.S. Agency for
International Development1.

A mission cashier typically (1) maintains an imprest fund in amounts prescribed by the
State Department’s U.S. Disbursement Office in Charleston, South Carolina; (2) makes
cash disbursements from the imprest fund against properly authorized documents; (3)
accepts payments on behalf of the U.S. government, such as bills of collection; (4)
deposits funds collected into the U.S. Disbursement Office’s dollar account; and (5)
maintains records of cash payments made by the alternate cashier and replenishes the
imprest fund of the alternate cashier.

Generally, the purpose of an imprest fund is to make small payments when the ordering
of checks is not practical and where the best interests of the U.S. government are
served by making payments in cash. At the same time, cash in hand must be kept to the
minimum needed to meet mission requirements.

USAID/Nigeria is currently authorized to maintain a revolving imprest fund of $100,000.
The Mission has a primary cashier, who is responsible for managing the imprest fund,
and an alternate cashier who replaces the primary cashier during absences. Cash
disbursements are made for such purposes as payroll, utilities payments and
accommodation exchange transactions. The Mission relies heavily on its imprest fund
because Nigeria lacks a reliable banking system.


AUDIT OBJECTIVE
The Regional Inspector General/Dakar conducted this audit to answer the following audit
objective:

       •   Did USAID/Nigeria manage its cashiering operations efficiently, economically,
           and in accordance with Agency policies and procedures?

Appendix I contains a discussion of the scope and methodology of the audit.




1
 Guidance for cashier operations includes: The Department of Treasury’s Financial Management
Service Cashier’s Manual and the Department of State’s Foreign Affairs Handbook Financial
Management Procedures for Cashier Operations, and USAID’s Bulletin 10-- “Mission Cashier
Operations”.


                                                                                      2
AUDIT FINDINGS
USAID/Nigeria generally managed its cashier operations in accordance with applicable
requirements. However, the Mission did not manage the operations as economically or
as efficiently as it could.

In accordance with requirements, cash transactions at USAID/Nigeria were performed
by the designated Class B Cashier who was approved by the U.S. Disbursement Office.
The cashier’s duties were appropriately segregated from the accounting and vouchering
functions in the Controller’s office. In addition, we found that cash, checks, and paid
vouchers were kept in a separate, protected area in a locked safe. Suitable precautions
are taken when transporting money between the bank and office. For example, the bank
is provided with a list of check numbers and amounts by letter and a photo of the cashier
and a bank employee delivers the cash to the cashier the next day. When it is
absolutely necessary for the cashier to go to the bank, she rides in an armored vehicle.
Furthermore, our spot check on the cashier’s internal controls revealed that required
policies and procedures were being adhered to in practice. For example, we found that
disbursements were made only for the types of purchases allowed under USAID
guidance, disbursements in excess of $500 were authorized by the Controller and
signed receipts were obtained for payments.

Despite generally adhering to applicable requirements, we noted that USAID/Nigeria did
not manage its cashier operations as economically as it could. According to the Cash
Management Policy Guidelines, Mission Controllers are required to review the level of
imprest funds held by their cashiers at least annually to ensure that such funds are
commensurate with actual needs. At the time of our audit fieldwork, USAID/Nigeria’s
Controller had not reviewed the imprest fund level in at least 3 years, even though the
Mission has grown substantially in that time. The Acting Controller explained that the
delay in reviewing the imprest level was due to too many competing demands, but that
she was reviewing the fund at the time of our audit. Therefore, because the imprest
level was under review, we are not making a recommendation regarding this issue.

We also found that USAID/Nigeria was not managing its cashiering operations as
efficiently as it could. The following describes two weaknesses in the Mission’s
management of its cashiering operations.




                                                                                    3
Competing Priorities and
Pressures Affect Efficiency
Of Cashier Operations


 Summary: According to the Department of State’s Foreign Affairs Handbook, which is
 a key source of guidance for USAID’s cashiering operations, the cashier should
 perform a full reconciliation of the operating cash advance and cash collections on a
 daily basis. We performed a spot check on cashiering operations and asked the
 cashier to reconcile the operating cash advance and cash collections. After two
 weeks, the reconciliation was still not complete, but the difference between the cash
 on hand and the documentation was an insignificant amount. When we asked if the
 cashier normally reconciles the funds daily, the cashier told us that she does not have
 the time to perform this management duty on a daily basis due to too many other
 demands. Additionally, the cashier had not performed any regular follow-up on the
 over $7,000 in outstanding advances at the time of the audit. This too was due to
 competing priorities and pressures on the cashier to perform many routine
 transactions outside normal operating hours, thus impacting the amount of time
 available to perform needed management and administrative duties.


Our audit disclosed two management duties that the cashier was not performing
efficiently. The first was a failure to perform daily cash reconciliations and the second
was a failure to follow-up on outstanding advances.

According to the Department of State’s Foreign Affairs Handbook, which is a key source
of guidance for USAID’s cashiering operations, the cashier should perform a
reconciliation of the operating cash advance and cash collections on a daily basis. In
order to verify that the cashier properly accounts for the funds, we performed a spot
check on cashiering operations and asked the cashier to reconcile the operating cash
advance and cash collections without any prior warning. We found that the cashier was
unable to reconcile the funds, so we documented the interim results and allowed the
cashier to complete the reconciliation on her own. However, after two weeks, the
reconciliation was still not complete, but the discrepancy was an insignificant amount
that may have been due to the cumulative effect of customers waiving their right to
change when the cashier did not have small bills. When we asked if the cashier
normally reconciles the operating cash advance and cash collections daily, the cashier
told us that she does not have the time to perform this management duty on a daily
basis due to too many other demands.

The second area where we noted that management duties were not being performed
efficiently related to outstanding advances paid to employees. A cashier advance is
money loaned out of the imprest fund to facilitate transactions before the approved
voucher is processed. An example of an advance is money provided to an employee to
purchase airline tickets, which will be reimbursed by the Mission when the travel voucher
is processed. The Foreign Affairs Handbook requires cashier advances to be repaid
within 72 hours or less. While we acknowledge that repayment within 72 hours is not
always reasonable due to the multiple approvals that are necessary to process

                                                                                    4
vouchers, we interpret the guidance to mean that advances should be repaid as soon as
reasonably possible.

On the day that we performed a spot check of USAID/Nigeria’s cashiering operations,
there were 35 outstanding advances totaling $7,467. Of these, 12 advances (34
percent) were less than 30 days old, 6 advances (17 percent) were between 30 and 60
days old, 8 advances (23 percent) were between 60 and 90 days old, with the remaining
9 advances (26 percent) more than 90 days old. One advance was more than one year
old. The cashier acknowledged that she had not conducted sufficient follow-up on these
advances to ensure repayment within a reasonable time period due to other duties which
reduced the time available to perform this management duty on a regular basis.

We discussed the cashier’s duties, work schedule and competing priorities with the
Acting Controller and other members of the Controller’s staff. The Acting Controller
observed that at most missions, the cashier offices are closed one day a week so the
cashier has sufficient time to perform management activities without the interruption of
normal cashier transactions. While USAID/Nigeria’s cashier is open every day, the
‘official’ cashier hours of 9:00 am to 12:00 pm are intended to provide such uninterrupted
time each afternoon. However, the Mission management acknowledged that there is no
effective policy limiting the number of transactions performed outside of normal
operating hours. As such, the cashier never actually closes because customers request
service throughout the day and—in an effort to provide good customer service—the
cashier does not turn them away. These competing priorities and pressures hinder the
ability of the cashier to manage her time and workload efficiently and result in poor
financial management over cashiering operations.

USAID/Nigeria is not managing its cashier operations as efficiently as it could by not
enforcing established operating hours for routine transactions. This leniency reduces
the amount of time available to perform management duties, resulting in poor
management over cashier operations. To address this weakness, we make the
following recommendation.

   Recommendation No.1: We recommend that USAID/Nigeria develop policies to
   restrict transactions occurring outside of normal cashier operating hours.




                                                                                    5
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Nigeria agreed with the finding and recommendation in the draft audit report, and
indicated that appropriate action had been taken to address the recommendation.
Therefore, a management decision has been reached for the recommendation.

Recommendation No. 1 states that USAID/Nigeria should develop policies to restrict
transactions occurring outside of normal cashier operating hours. In order to address
this recommendation, the Mission issued a Mission Notice on July 7, 2006, followed by
an Administrative Notice on July 19, 2006 specifying the daily cashier window hours and
noting that only bona fide emergency transactions will occur after these posted hours.
Furthermore, Mission management will receive notification of emergency transactions.

As a result of the Mission’s corrective action, the recommendation is considered closed
upon issuance of this report. USAID/Nigeria’s comments are included in their entirety in
Appendix II, except for the supporting attachments, which are not included in this audit
report.




                                                                                   6
                                                                                Appendix I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar performed this audit as part of our FY 2006 audit
plan. The audit was conducted in accordance with U.S. generally accepted government
auditing standards. The objective of the audit was to determine if the Mission managed
its cashiering operations efficiently, economically, and in accordance with Agency
policies and procedures.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to its cashiering operations. These internal controls included
the establishment of the imprest fund; designation of cashiers; establishment of cashier
authorities; safeguarding of imprest fund assets; separation of duties; and unannounced
cash counts of the imprest fund. Additionally, we reviewed the Mission’s FY 2005
Federal Manager’s Financial Integrity Act annual certification for any management
control weaknesses related to cashiering operations and found that there were none.
We also determined that the last audit of USAID/Nigeria’s cashiering operations was
conducted in 2003, at which time there were no findings.

Our audit covered the $100,000 imprest fund maintained by the primary cashier and
alternate cashier. Audit fieldwork was performed at USAID/Nigeria in Abuja, Nigeria
from April 10, 2006 through April 27, 2006.

Methodology
To answer the audit objective, we obtained an understanding of the cashiering
requirements as described in the Department of Treasury’s Manual of Procedures and
Instructions for Cashiers, the Department of State’s Foreign Affairs Handbook, and USAID-
published guidance.

We assessed the Mission’s internal controls over cashiering operations by interviewing
appropriate Mission officials and staff. We reviewed the physical security of the
cashier’s office for compliance with requirements specified in the guidance. In order to
test internal controls, we judgmentally selected transactions to verify that all payments in
excess of $500 were approved by the Controller, that disbursements were made for
authorized purposes and that signed receipts are obtained for all payments. We then
reviewed a detailed list of the outstanding advances to determine if they were repaid on
a timely basis.

Finally, we performed a surprise cash count and asked the cashier to perform a
reconciliation of the imprest fund to confirm that the cash on hand was correct.




                                                                                      7
                                                                                 Appendix II

MANAGEMENT COMMENTS



July 20, 2006

Acting Regional Inspector General/Dakar
Nancy Toolan
Office of Inspector General
Dakar, Senegal

Subject: Audit of USAID/Nigeria’s Cashiering Operation

Dear Nancy,

USAID/Nigeria appreciates the assistance of RIG/Dakar and concurs with the findings as
noted on the draft audit report, 7- 620-06-XXX-P. The Mission has addressed
Recommendation No. 1:

“We recommend that USAID/Nigeria develop policies to restrict transactions occurring
outside of normal cashier operating hours.”

A Mission Notice was issued on July 7, 2006 via e-mail. This was followed by
Administrative Notice numbered No. 055, issued on July 19, 2006, that specified the
daily cashier window hours and noted the following: “Please plan your cashier
requirements accordingly. Adherence to these window hours will allow the cashier to
complete the required transactions to maintain and manage the various cashier functions
during after window hours. Only bona fide emergency transactions will occur after these
posted hours. Mission management will receive notification of emergency transactions.”

The issuance of the Administrative Notice and the enforcement of it will allow the
required time for the cashier to perform and catch up with daily management
responsibilities. This will reduce the potential risks as reported by the draft audit report.
The Mission believes that this action closes the audit recommendation, however if
additional action is required, please contact the Mission and immediate action will be
taken.

USAID/Nigeria wishes to thank the auditors and appreciate their assistance.
                   Sincerely,
                   Patrick Fleuret, Mission Director /s/


                                                                                       8
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
